es
I

OCKLE

2311 Douglas Street CA L 1 Brief E-Mail Address
ega riets
Omaha, Nebraska 68102-1214 8 Est, 1924 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 20-1786

JOANNE TROESCH AND IFEOMA NKEMDI,
Petitioners,
v.
CHICAGO TEACHERS UNION, LOCAL UNION NO. 1,
AMERICAN FEDERATION OF TEACHERS, AND THE
BOARD OF EDUCATION OF THE CITY OF CHICAGO,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 22nd day of July, 2021, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF GOLDWATER INSTITUTE AND CATO INSTITUTE
AS AMICI CURIAE SUPPORTING PETITIONERS in the above entitled case. All parties required to be served have been
served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
ILYA SHAPIRO JACOB HUEBERT*
TREVOR BURRUS SCHARF-NORTON CENTER
SPENCER DAVENPORT FOR CONSTITUTIONAL
CATO INSTITUTE LITIGATION AT THE
1000 Mass. Ave. NW GOLDWATER INSTITUTE
Washington, DC 20001 500 E. Coronado Rd.
(202) 842-0200 Phoenix, AZ 85004
ishapiro@cato.org (602) 462-5000
litigation@

goldwaterinstitute.org
*Counsel of Record

Counsel for Amici Curiae
Goldwater Institute and Cato Institute

Subscribed and sworn to before me this 22nd day of July, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm. Exp. September 5, 2023

fe nee cose, & 2 b s,
RENEE J. GOSS 9. ( ded rar 3

Notary Public Affiant 41210

 
Attorneys for Petitioners

William L. Messenger
Counsel of Record
c/o National Right to Work Legal Defense Foundation, Inc.
8001 Braddock Road, Suite 600
Springfield, VA 22160
wlm@nrtw.org
703-321-8510
Party name: JoAnne Troesch, et al.

Attorneys for Respondents

Thomas Arthur Doyle
Counsel of Record
Board of Education of the City of Chicago (Law Department)
1 North Dearborn
9th Floor
Chicago, IL 60602
tadoyle2@cps.edu
773-553-1720
Party name: Board of Education of the City of Chicago

Joshua B. Shiffrin
Counsel of Record
Bredhoff & Kaiser PLLC
805 15th Street Northwest
Suite 1000
Washington, DC 20005
jshiffrin@bredhoff.com
202-842-2600
Party name: Chicago Teachers Union, et al.
